1

f
If

i

i

No. 20-932

1I
i

In The

I
I

SUPREME COURT OF THE UNITED STATES

I

BOBBY L. FRANKLIN, D/B/A DAYDREAM
LAND & SYSTEMS DEVELOPMENT,

T

1
1

f
1:

Petitioner,
5

|

V.

il

D.J. LAUGHLIN: ATTORNEY WILLL4M R. URGA,

l

I

Respondents.

t]

n
1

On Petition for a Writ of Certiorari to
The Supreme Court of the State of Nevada

t

i

<

PETITION FOR REHEARING

3
j.

!is

1
1
I
fl
ij

si
1

1
%

BOBBY L, FRANKLIN
Desert Land Entryman N-49548
2451 N. Rainbow Blvd. # 2037
Las Vegas, NV. "89108
Petitioner pro se
830-822-4791
dlepatent@hotmail.com

Page 1 of 4
Pursuant to Rule 44.2, the Petitioner Franklin
petitions for rehearing of his petition for certiorari that
was denied on March 1, 2021.

REASONS FOR GRANTING REHEARING
The lower courts, and moreover this U.S. Supreme
Court has not recognized its own stare decisis land
patent law under the Desert Land Act of Congress, in
Stocklev, et al.. u. United States. 260 U.S. 532 (1923). 43
CFR 1862.6 - “Patent to issue after the lapse of 2 years
from date of manager’s final receipt. ... and thus to
transfer from the land officers to the regular judicial
tribunals the authority to deal with any subsequent
controversy over the validity of the entry.”
Such manager’s final receipts) was issued to Franklin
in 1988. For decades, such judicial tribunals have
denied its jurisdiction to deal with such patent law of
this Supreme Court of the United States.
In accordance with Rule 33.1(c), the three adverse
patent documents below were reformatted in URL,
because the district court had stricken and deleted such
evidence from its record, and are hereby duplicated on
8.5” X 11” paper, as is necessary in a separate appendix
to this booklet.
Franklin’s stare decisis patent rights is published in
his certified First Title on the 80 acres, in “Appendix E”.
https://drive.google.eom/file/d/lU6WkUiltv4FPQsCT3
Wn hODW7pjxqWMC/view .
In 2006, Respondent Laughlin acquired his adverse
patent rights on Franklin’s 80 acre estate, Appendix F.
https://docs.google.eom/document/d/lZB6adR IlhUbBR
kkUcSFn9ALPN2 PlTTvPZOrKvfsUQ/edit#heading=h
.gjdgxs .
In 2016, Mr. Laughlin’s attorney Urga finally
documented his fabricated and undisputed five counts

Page 2 of 4
of his fraud on the district court minutes in 2016, which
falsified Franklin’s patent rights See. “Appendix G”.
https://drive.google.eom/fLle/d/OBOiiIQVlAnnCUrVvWV
Jlb282eU0/view .
On 06/04/2020, the district court had stricken such
evidence from its record; the Nevada Supreme Court
denied its stare decisis jurisdiction; and days ago, this
Court denied to recognize, stand with or enforce its
longstanding stare decisis patent law decision clearly
written in Stocklev. Google defines such doctrine:
“Under the rule of stare decisis, courts are obligated
to uphold their previous rulings or the rulings made by
higher courts within the same court system.” ... “The
doctrine of stare decisis makes the decisions of courts,
usually the higher forums, binding on subordinate
courts in cases in which similar or identical questions of
law are raised before the court. The application of this
doctrine ensures that there is uniformity and certainty
in the law.”
INTERVENING CIRCUMSTAES OF A
SUBSTANTIAL OR CONTROLLING EFFECT
NOT PREVIOUSLY PRESENTED
“The Desert Land Act was passed by the United
States Congress on March 3, 1877, to encourage and
promote the economic development of the arid and
semiarid public lands of the Western states. Through
the Act, individuals may apply for up to 320 acres a
desert-land entry to reclaim, irrigate, and cultivate arid
and semiarid public lands.” Published by the
Department of Interior, Bureau of Land Management.
The intervening circumstance is that if this Court
chooses to abandon its own stare decisis land patent law
on valid and existing desert-land entries on public
lands, then that would effectively repeal the 1877
Desert Land Act of Congress and make it entirely

Page 3 of 4
meaningless and unenforceable in any judicial tribunal
of law, and vulnerable to such fraud on the court(s).
OTHER GROUNDS
NOT PREVIOUSLY PRESENTED
The standard of this Court to review its own stare
decisis land patent law are clearly written in Stocklev.
The basic standard of any court to review the
undisputed and documented five counts of “fraud on the
district court minutes” done by attorney Urga in 2016
was not previously presented, and is now: (1) an
intention fraud; (2) by an officer of the court; (3) which
is directed at the court itself; and (4) in fact deceives the
court. All elements not previously presented are met
here. Appendix E clearly proves that attorney Urga has
been deceiving the courts for the last fourteen-years to
defraud Franklin’s patent rights in his existing First
Title on the 80 acres, and Appendix G finally documents
attorney Urga’s fraud on the district court minutes in
2016, the same he has been falsely stating since 2006.
IRREPARABLE HARM AND DAMAGES
NOT PREVIOUSLY PRESENTED
At this time, Franklin waives all injury and damage
claims, until he establishes his stare decisis patent
rights of this Court in Stocklev. which is published in
Franklin’s existing and certified First Title on the
disputed 80 acres. See. Appendix E.
SUMMATION
Thus, this Court should recognize, address and
enforce its stare decisis patent law written in Stocklev.
to stop and finally put an end to the Respondents’
fourteen-years of their planned court actions and racket
to defraud the courts, and extort Franklin’s 80 acre
estate described in his certified First Title without any
due process of law to do so. Otherwise, the 1877 Desert

Page 4 of 4
Land Act would effectively become meaningless and
unenforceable; vulnerable to such fraud; cancel culture
elimination of any desert-farming to be done on any
public lands; and, the Franklin family would be cheated
out of over thirty-years of their life, liberty, and their
entered property rights without any due process of law
to do so.
CONCLUSION
Based on the foregoing, the Court should grant
rehearing and request the Respondents to respond.
Respectfully submitted by,
s/ BOBBY L. FRANKLIN
Desert Land Entryman N-49548
2451 N. Rainbow Blvd. #2037
Las Vegas, NV. 89108
Petitioner pro se
830-822-4791
dleoatent@hotmail.com
CERTIFICATE OF COUNSEL PRO SE
Pursuant to Rule 44.2, petitioner Franklin certifies
that the foregoing Petition for Rehearing is restricted to
the grounds specified in this Rule and that it is
presented in good faith and not for delay.
Respectfully submitted by,
s/

a

a

BOBBYIL. FRANKLIN
Desert Land Entryman N-49548
2451 N. Rainbow Blvd. #2037
Las Vegas, NV. 89108
Petitioner pro se
830-822-4791
dlepatent@hotmail.com

Additional material
from this filing is
available in the
Clerk's Office.

/i

